<html>
<title> - STATUS OF THE COAST GUARD CIVIL RIGHTS PROGRAMS AND DIVERSITY INITIATIVES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          STATUS OF THE COAST GUARD CIVIL RIGHTS PROGRAMS AND
                         DIVERSITY INITIATIVES

=======================================================================

                               (111-106)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 27, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
56-291                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6403140b24071117100c0108144a070b094a">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York, Vice 
Chair
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dickerson, Terri, Director, U.S. Coast Guard Office of Civil 
  Rights.........................................................     4
Ekstrand, Laurie, Director of Strategic Issues, Government 
  Accountability Office..........................................     4
Hewitt, Rear Admiral Ronald T, Assistant Commandant for Human 
  Resources, U.S. Coast Guard....................................    25
Burhoe, Rear Admiral J. Scott, Superindentent, U.S. Coast Guard 
  Academy........................................................    25

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Thompson, Bennie G., of Mississippi..............................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dickerson, Terri.................................................    45
Ekstrand, Laurie.................................................    51
Hewitt, Rear Admiral Ronald, and Burhoe, Rear Admiral J. Scott...    80

                       SUBMISSION FOR THE RECORD

Dickerson, Terri, Director, U.S. Coast Guard Office of Civil 
  Rights, table containing reccomendations.......................    13

[GRAPHIC] [TIFF OMITTED] T6291.001

[GRAPHIC] [TIFF OMITTED] T6291.002

[GRAPHIC] [TIFF OMITTED] T6291.003

[GRAPHIC] [TIFF OMITTED] T6291.004

[GRAPHIC] [TIFF OMITTED] T6291.005

[GRAPHIC] [TIFF OMITTED] T6291.006

[GRAPHIC] [TIFF OMITTED] T6291.007

[GRAPHIC] [TIFF OMITTED] T6291.008

[GRAPHIC] [TIFF OMITTED] T6291.009

[GRAPHIC] [TIFF OMITTED] T6291.010

[GRAPHIC] [TIFF OMITTED] T6291.011



     STATUS OF THE COAST GUARD CIVIL RIGHTS PROGRAMS AND DIVERSITY 
                              INITIATIVES

                              ----------                              


                        Tuesday, April 27, 2010

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [chairman of the Subcommittee] presiding.
    Mr. Cummings. The Subcommittee will come to order.
    The Subcommittee convenes to consider the results of the 
Government Accountability Office's assessment of the efforts 
undertaken by the United States Coast Guard to implement the 53 
recommendations made by Booz Allen Hamilton to improve the 
provision of civil rights services. Booz Allen Hamilton made 
these recommendations in an assessment of the Coast Guard's 
civil rights services released in early 2009.
    The director of what is now known as the Coast Guard Civil 
Rights Directorate, Ms. Terri Dickerson, and the GAO's director 
of strategic issues, Ms. Laurie Ekstrand, will testify on our 
first panel.
    The Civil Rights Directorate report has implemented 52 of 
the Booz Allen Hamilton's 53 recommendations, and I applaud the 
speed with which the Civil Rights Directorate has moved to 
seize the initiative and to respond to the findings of the Booz 
Allen Hamilton report.
    However--and we will hear more about this from the GAO 
during their testimony--the GAO's report would suggest that 
implementation of these recommendations may not--and I 
emphasize "may not"--really be completed.
    The GAO's report argues that achieving long-term changes in 
the Civil Rights Directorate and ensuring the effective 
provision of EEO and EO services to civilian and military 
members of the service rest on the articulation both of a clear 
vision of outcomes to be achieved by reforms and of measurable 
steps that can be used to assess progress towards the 
achievement of these outcomes.
    The GAO is arguing that simply producing outputs without 
considering whether and how they contribute to the achievement 
of overarching strategic objectives or respond to the actual 
needs of the users of civil rights services is not likely to be 
adequate to overcome what have been longstanding challenges in 
the Coast Guard's provision of civil rights services. And, as I 
have often said in these hearings, I am most concerned about 
what is effective and efficient--effective and efficient.
    The GAO's findings suggest that more remains to be done, 
and we look forward to hearing the Coast Guard's responses to 
these findings.
    The Subcommittee's second panel, comprised of Admiral 
Ronald Hewitt, an assistant commandant for human resources, and 
Rear Admiral J. Scott Burhoe, the superintendent of the Coast 
Guard Academy, will detail the ongoing efforts taken by the 
Coast Guard to expand diversity at the Academy and throughout 
the service's ranks.
    Last year, the Coast Guard Academy undertook vigorous 
efforts to expand their recruiting outreach to qualified 
minority students. Completed applications to the class of 2014 
increased significantly among African Americans, Hispanic 
Americans, Asian Americans, and Native Americans, compared to 
the number of completed applications received from minorities 
to the class of 2013.
    Further, according to current data, approximately 16 
percent of the appointments offered to the class of 2013 went 
to minority students, and the incoming class was similarly 
comprised of approximately 15 percent minorities. By 
comparison, as of April 19, 2010, 23 percent of those offered 
admission to the Academy's class of 2014 were minorities, and 
approximately 25 percent of those who had accepted admission 
offers were minorities.
    I am very heartened by the progress that has been made in 
expanding diversity at the Academy. However, maintaining such 
increased levels of minority applications and enrollments will 
likely continue to require a concerted outreach effort. I am 
eager to hear how this effort will be sustained going forward, 
including the level of resources that are needed to continue 
it.
    That said, as I have argued during my address to the Coast 
Guard's recent diversity submit, which was an outstanding event 
and one which I congratulate the Coast Guard for organizing, 
the provision of effective civil rights and the increased 
recruitment of minorities to an incoming class at the Academy 
and to all ranks throughout other recruitment programs are 
necessary but not sufficient steps to ensure that the Coast 
Guard has achieved true diversity.
    The Coast Guard succeeds because its members never forget 
that they must depend upon each other, trust each other, and 
protect each other, even as the service defends the rest of us. 
Any attack upon any link in this chain of defenders that guards 
our Nation has the potential to endanger us all. And attacks 
can come in many, many forms. Any action that is meant to 
threaten or intimidate or to rob a fellow American of the sense 
of personal freedom and security that we take to be our right 
is an attack upon all of us and all that we hold so very, very 
dear.
    Any act of discrimination threatens the unity that keeps 
our Coast Guard strong. The Coast Guard must be a place where 
such an incident is unthinkable and where, if it does occur, 
the response is swift, certain, and decisive. The Coast Guard 
must be a place where fairness and mutual respect are embedded 
deep in every heart and embodied in the opportunities that made 
equality available to all. In other words, it must be embedded 
in the DNA of the Coast Guard.
    And so, just as it must continue in the American society as 
a whole, work must continue in the Coast Guard if the vision of 
national unity constructed on a foundation of respect for the 
dignity of every human being is to be realized.
    And, with that, I now recognize the distinguished Ranking 
Member of our Committee, Congressman LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much.
    Over the past 2 years, the Coast Guard has launched several 
new initiatives to increase and retain the number of minorities 
within its enlisted officer corps. These initiatives, along 
with other efforts through the Office of Civil Rights, are 
geared toward creating a more inclusive workplace that offers 
every individual the opportunity to fully contribute to Coast 
Guard missions. This is important because, as the country 
becomes more diverse, it is important for the Coast Guard to 
follow suit if the service expects to continue to conduct their 
missions successfully.
    Through the Subcommittee's oversight on this issue, it 
appears that the Coast Guard is having a difficult time 
reaching out to certain minority groups through the recruitment 
process. Like all branches of the Armed Forces, the Coast Guard 
is a completely volunteer force. However, unlike the other 
military services, the Coast Guard does not enjoy the same 
level of name recognition among certain segments of the 
American people as their partners in the Department of Defense. 
For that reason, the Coast Guard needs to employ all methods in 
its arsenal to strengthen its brand.
    Unfortunately, the President's fiscal year 2011 budget 
request for the Coast Guard cuts the recruiting budget by 
nearly $3 million, eliminates over 1,100 service members, and 
caps the number of new recruits at historically low levels. As 
a result, the Coast Guard is already turning away or delaying 
opportunity to record numbers of potential recruits that are 
highly qualified and interested in serving the Coast Guard.
    I am not sure how the service is going to be successful in 
recruiting a diverse and qualified workforce under the drastic 
budget cuts proposed by the President. I will be very 
interested in hearing from the witnesses on how they intend to 
carry out this mission under these very difficult 
circumstances.
    In addition to the need to focus on recruitment, the Coast 
Guard is also revamping the Office of Civil Rights to address 
allegations of mismanagement and recommendations made by an 
external review. The directorate has been diligently working to 
address more than 50 items identified by an outside review, and 
I am encouraged by the news that many, if not all, of these 
programmatic changes have been made.
    I am still concerned, however, by the findings of the 
Government Accountability Office that the service still lacks a 
clear view of outcomes that are desired from these and other 
initiatives.
    Unfortunately, this failure to look at the wider scope of 
impacts does not appear to be confined just to the Coast 
Guard's civil rights program. I am particularly concerned about 
the process by which the Coast Guard designed last week's 
diversity summit and the apparent lack of any plan on how to 
use that opportunity and the more than $200,000 spent on the 
summit to improve training and awareness of the service's 
diversity goals and programs.
    For example, the service had no plans in place to ensure 
the message from the summit got back to the field units. The 
summit does not appear to be meaningfully addressing any of the 
training goals outlined by the diversity action plan; did not 
provide solutions to the service's problems in recruiting a 
diverse workforce; and represents what I feel is a lost 
opportunity to efficiently use taxpayer money at a time that 
the Coast Guard is facing dire budget cuts.
    Nevertheless, the Coast Guard has done a great deal of work 
to present itself as a viable career option to all Americans 
and to improve internal conditions which may impact the ability 
of individual Coast Guardsmen to carry out their 
responsibility. However, more can be and should be done.
    I want to thank the witnesses for their continued 
cooperation with the Subcommittee, and I look forward to 
hearing their testimony on how the service plans to address 
these important issues.
    Mr. Cummings. Thank you very much.
    I ask unanimous consent that the Chairman of the Committee 
on Homeland Security, Congressman Bennie Thompson, may include 
a statement in the record of today's hearing. And, without 
objection, it is so ordered.
    We now come to our first panelists. Ms. Terri Dickerson is 
the director of the Civil Rights Directorate with the United 
States Coast Guard, and Ms. Laurie Ekstrand is the director of 
strategic issues with the Government Accountability Office.
    Welcome, Ms. Dickerson. And then we will hear from Ms. 
Ekstrand. Please keep your voice up.

     TESTIMONY OF TERRI DICKERSON, DIRECTOR, CIVIL RIGHTS 
   DIRECTORATE, UNITED STATES COAST GUARD; LAURIE EKSTRAND, 
  DIRECTOR, STRATEGIC ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Dickerson. Thank you. Good morning, Mr. Chairman and 
distinguished Members of the Committee. I am Terri Dickerson, 
the director of the Coast Guard's Civil Rights Directorate, 
CRD. And, as before, I am privileged to be here today.
    I would like to submit my statement for the record.
    Mr. Cummings. So ordered.
    Ms. Dickerson. This morning, I plan to address myself to 
the Government Accountability Office, GAO, findings, and also 
highlight progress we have made.
    In 2008, I asked the Department of Homeland Security to 
review the Coast Guard's civil rights program and to offer 
recommendations for how we could improve. DHS consented to 
participate in a review by a contractor, and in September of 
2008 Booz Allen Hamilton was awarded that contract.
    You are well aware from my previous testimony of the many 
steps I took to ensure a transparent process, including: 
sending a message to Coast Guard leadership to indicate that 
the review had begun and enlisting their support in allowing 
any employees identified by the team or desiring to participate 
to do so; ensuring that the methodology included expansive 
outreach to stakeholders asking what they thought was wrong 
about the civil rights function and what could bring about 
desired outcomes; posting the entire review, including all 
collateral documents, on our Web site; setting up an e-mail 
address for questions and comments and responding to all that I 
personally received; sending a message to all Coast Guard 
employees directing their attention to the Web site and the 
results; briefing Coast Guard senior leadership on the 
findings, recommendations, and plans to address them; sharing 
plans with the workforce and refining them based on their 
feedback; traveling to each and every Coast Guard district, 
where I discussed the changes with all levels of the workforce 
to ensure clarity; notifying union personnel of plans and 
answering all questions posed on the potential impact on 
employees; holding teleconferences and conducting an alignment 
summit at the Defense Equal Opportunity Management Institute; 
publishing at least 10 stories in our monthly newsletter, each 
edition of which provides readers with our contact information.
    Through these avenues and many others, I ensure that the 
leadership--you--and Coast Guard workforce remained aware of 
our changes and progress. You might notice my emphasis on 
transparency. That is because Coast Guard and the Civil Rights 
Directorate have been extremely outward in our efforts to 
reform and provide the best possible services to our employees.
    The financial dictionary defines "transparency" as "the 
full, accurate, and timely disclosure of information." This is 
a source of my first notation on the GAO report: that because 
our processes did not always include meeting minutes and 
similar documentation constituting a historical track of how we 
implemented change, transparency to shareholders, they said, 
was weakened.
    The other notation I raised concerned GAO's retroactive 
sorting of the Booz Allen recommendations into the EEOC 
elements for a model program, mainly the overstatement of their 
association with element one: demonstrated commitment from 
leadership. Booz Allen Hamilton did not subject the 
recommendations to this EEOC template for a model program, and 
GAO attempted to do so retroactively.
    I am very familiar with the six elements offered by EEOC 
and actions--for example, training and developing a PII 
handbook--GAO classifies under the leadership demonstration, 
though I think the EEOC community would associate it with the 
other elements.
    But they did a thorough job--GAO, that is--and to quibble 
here consumes time I would rather direct to a greater 
imperative, specifically whether or not Coast Guard is moving 
toward a discrimination-free work environment, one that says to 
employees and applicants that they will be dealt with fairly. I 
accept the GAO recommendations and will institute the practices 
they recommend for future project planning.
    The overwhelmingly more important point is that, rather 
than spend time on additional measuring and studying, we acted. 
Leaders need to be able to assess the risk of devoting 
resources to moving forward versus less action but more 
documentation. In my assessment, we didn't need more study, 
examination, minutes, task forces' reports, or working groups. 
Most of what had been identified to Coast Guard by third-party 
assessments, most predating me, had been described, measured, 
and validated in earlier studies. Stakeholder input on desired 
outcomes was embedded in the Booz Allen methodology.
    Like any leader, I value precision and accuracy, but a 
leader must have the experience and judgment to know when to 
study more and when to act. With the commandant's leadership 
and the Committee's oversight, we didn't allow this review to 
become shelfware. Why? Because this is our time. This is our 
watch.
    Let it be said that, in July of 2009, on our watch, Coast 
Guard began to deliver civil rights services through a 
centrally managed, national structure by full-time specialists. 
On our watch, we accepted all 53 of the recommendations offered 
by the Booz Allen review team and are on the threshold of 
completing the last; that is, our revised EEO manual is 
entering final stages of vetting and clearing before 
publication. And while an EO manual is not a requirement, Coast 
Guard took the time to develop the best one it could, because 
doing so is a good practice consistent with model element 
number three.
    And, under Admiral Allen's bold leadership, we initiated 
the Senior Executive Leadership Equal Opportunity Seminar, and 
he directed all in Coast Guard leadership positions to attend. 
In January, on our watch, he signed into effect the anti-
harassment and anti-hate policy which, to my knowledge, is the 
only one of its kind in the Federal workforce.
    I hope to, during my watch, give focused attention to the 
military complaint decisions that Coast Guard resumed last year 
from DHS so that service members, who sometimes live and work 
in extremely close proximity to parties with whom they have 
active disputes, would get quicker decisions. In 2008, DHS 
completed no military decisions. They transferred the entire 
workload, more than 50 complaints waiting for a decision, to 
Coast Guard last year. Thus far, this fiscal year 2010, Coast 
Guard, the Civil Rights Directorate, has issued 40 decisions.
    During this, our watch, we have increased the number of 
personnel attending sexual harassment prevention training from 
35,000 in 2007 to 47,000 in 2009. In 2007, we increased the 
requirement for equal opportunity climate surveys from 
triannially to annually. Thus, in the first 6 months of fiscal 
year 2010, more than 14,000 employees participated in climate 
surveys, and this is more than the total number who 
participated during the entire previous year.
    And we issued a command checklist to ensure that civil 
rights policies and procedures are trusted, respected, 
vigorously enforced, and that fairness and mutual respect are 
embedded and permeate throughout, as you said, the DNA of the 
Coast Guard culture. Other military services have told us they 
are emulating this tool.
    On our watch, Coast Guard's compliance with EEOC Management 
Directive 715 factors has risen from 84 percent in 2004 to 100 
percent last year. We are one of very few agencies to have 
posted our MD-715 assessment on the public internet even in the 
years before we achieved 100 percent. That is transparency.
    None of us act so that people will like us or for 
accolades. In fact, because of the decisions we make, people 
sometimes won't like us. That is okay. We act to make sure 
Coast Guard sustains a model EEO civil rights program among 
Federal agencies and Armed Forces. We act because, at the end 
of our watch, we will be able to say we did everything we could 
to ensure the government's promise to its employees of a 
discrimination-free work environment.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    Mr. Cummings. Thank you very much.
    Ms. Ekstrand?
    Ms. Ekstrand. Mr. Chairman and Members of the Committee, 
thank you for inviting me to testify concerning Coast Guard 
Civil Rights Directorate's progress in developing and 
implementing action plans to improve its operations.
    You asked GAO to assess these action plans in relation to 
three dimensions, and let me speak to each in turn.
    First, you asked us to review how Coast Guard's action 
plans align with EEOC's six elements of an equal employment 
opportunity program. These elements, as listed in more detail 
on page 8 of our written testimony, are: demonstrated 
commitment from leadership; integration of EEO into agency 
mission; management and program accountability; proactive 
prevention of discrimination; efficiency and responsiveness; 
and legal compliance.
    Our review showed that 25 of 29 action plans related to the 
six elements, with the largest number relating to the 
leadership element. CRD has questioned our decision to place 
some action plans within the leadership element, and we concede 
that, because of the overlapping nature of some of these 
elements, disagreement about classification can rightfully 
occur. However, even if some of these changes were made, the 
leadership element would still be a prominent focus of 
activities.
    Your next interest was to have us assess how Coast Guard 
developed and reviewed its action plans. We found that CRD 
leadership moved quickly to form a functional review team of 
senior staff, assigned project officers, and met with the 
commandant and agency leadership. However, CRD did not maintain 
documentation that would have helped them track progress, make 
midcourse corrections, and ensure greater transparency.
    CRD used the functional review recommendation spreadsheet, 
called the FRR, to maintain current information about the 
status of action plans. However, each time the FRR was updated, 
prior information was erased rather than maintained. Thus, no 
cumulative record of progress was maintained.
    In addition to the immediate value of documentation--for 
example, to see the need for midcourse corrections--documenting 
progress can be valuable for both the continuity of CRD 
leadership--and this is especially important in an environment 
that includes rotating military personnel--and learning lessons 
about what works and what doesn't to inform future change 
efforts.
    Our third objective was to review the extent to which 
action plans align with generally accepted project management 
practices. We focused on four action plans that seem central to 
CRD management improvement. For these four plans, we compared 
CRD's implementation with seven tried-and-true project 
management practices. These practices include identifying 
measurable performance goals, specific tasks, persons 
accountable for completing tasks, interim milestones and 
checkpoints, needed resources, as well as consulting 
stakeholders and defining how to evaluate success.
    We essentially rated each action plan in relation to the 
practices using a scale of "fully implemented," "partially 
implemented," and "not implemented." Where there was no 
documentation available to make this assessment, we relied on 
testimony of CRD's staff.
    We found that the action plan's implementation aligned more 
frequently with some project management practices than others. 
For example, all four action plans identified someone as 
accountable for executing tasks.
    Our major concerns relate to identifying measurable 
performance goals and in defining how to evaluate success, and 
these are two interrelated practices. Although each of the four 
plans specified a performance goal, these goals are in the form 
of a product or output, not an outcome or desired future state.
    For example, for the action plan focusing on creating a PII 
handbook--that is the personally identifiable information 
handbook--the handbook itself was the goal. The handbook, 
however, is an output, while the goal or outcome is much more 
likely to be the proper handling of personal information by all 
CRD staff. With a focus on the outcome, the effort might have 
included, for example, training on the new manual.
    This focus on the goal or output rather than an outcome is 
linked to evaluating the success of the program, since it is 
the outcome that defines the degree of success. It is entirely 
possible, but unlikely the case, that the new PII handbook 
could not--could be producing--could not be producing the 
intended result.
    Planning the evaluation of the desired outcome--that is, 
appropriate handling of personal information--could include, 
for example, gathering feedback from users of the manual to 
ensure that requirements are understood after it is distributed 
and that they are feasible to implement in multiple 
environments.
    This ends my oral statement. And, of course, I will be 
happy to answer any questions you may have.
    Mr. Cummings. Thank you very much, Ms. Ekstrand.
    As I listened to you, I could not help but think about when 
I was in law school and they would teach you how to ask 
questions, and they said that so often you can list questions 
and not listen to answers. And it is better to listen to the 
answers, sometimes almost disregard your questions, and just 
follow, because that is how you can get the information you 
need.
    In other words--and I say that because it sounds like what 
you are saying is analogous to that. Basically, there were 
certain things that were supposed to be done, so we got them 
done. Like, we are checking off--like, the list of questions, 
we are checking them off. But actually to the effectiveness and 
how do we make sure that they are accomplishing the things that 
need to be accomplished, that is where it seemed like there was 
some weakness.
    Is that a fair statement?
    Ms. Ekstrand. I don't want to discount the level of 
activity of the Civil Rights Directorate. They were extremely 
active over the past year----
    Mr. Cummings. I got that. That is the piece where you are 
going down the questions.
    Ms. Ekstrand. But I think that perhaps some more 
thoughtfulness in terms of outcomes and more planning ahead 
might have helped as an insurance policy towards getting to 
where they wanted to wind up in the end.
    Mr. Cummings. Now, you also talked about documents in 
progress--is that what you said?
    Ms. Ekstrand. We talked about documentation of major 
decisions and major discussions as something that we felt was 
lacking in their processes over the last year.
    The documentation of progress, you know, can be extremely 
helpful. You know, it can show you where the pitfalls are. It 
can show you where maybe you need to change course. 
Documentation over time can show you what kinds of efforts work 
in terms of making changes and what doesn't work.
    Mr. Cummings. So, in other words, you have to have--you are 
saying that you have to--you also said that when you have an 
organization like the Coast Guard, where you have personnel in 
and out, rotating, that that documentation becomes even more 
significant because you need to have that history so that you 
can gauge success.
    Ms. Ekstrand. Exactly. Exactly.
    Mr. Cummings. I see.
    All right, let me go to you, Ms. Dickerson. Ms. Dickerson, 
first of all, congratulations on the 52 out of 53. Is that 
right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. What did we miss? What is the one that we did 
miss? I don't want to zero in on that, but I am just curious.
    Ms. Dickerson. The equal opportunity manual is something 
that we have taken delivery on from the contractor and now it 
is in our internal finalization process. And I expect it would 
be sometime next month that it would be ready for distribution 
to the workforce.
    Mr. Cummings. And this document does what?
    Ms. Dickerson. Well, everyone is required to follow EEO 
policy specifically. And it is a good practice among agencies, 
especially those like Coast Guard, where you might use a 
different vernacular--for example, instead of saying 
"management official," we can say "commanding officer"--to make 
the regulations more understood by and permeate through the 
workforce so that they can access what is meant by EEOC 
regulation.
    So it is a follow-on, a best practice, that comes from EEOC 
regulation, which is what every agency is required to follow.
    Mr. Cummings. So you are saying that that should be 
completed within the next month?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. All right. I am going to give you 6 weeks.
    Ms. Dickerson. Thank you.
    Mr. Cummings. And we will check back with you in 6 weeks. 
And I would like to have that document on my desk, and for the 
Committee Members, so we can review it.
    Ms. Dickerson. Absolutely. I have every confidence we will 
be able to do that.
    Mr. Cummings. All right.
    Now, Ms. Dickerson, the GAO has essentially indicated that 
the Coast Guard was rushing to implement its action plans 
rather than documenting the processes by which it decided how 
to implement recommendations or putting in place the systems 
necessary to evaluate the outcomes produced by the 
implementation of the action plan.
    Specifically, GAO states that the Coast Guard developed 
plans to create outputs, such as the production of a new manual 
on the handling of personally identifiable information, on the 
restructuring of the civil rights division, but did not develop 
the plans to measure what the new outputs were intended to 
achieve.
    What is your reaction to these findings? And why did you 
focus on outputs rather than outcomes? I think you already said 
that you pretty much agree with the findings of the GAO, so I 
just wanted to know your reaction to that.
    Ms. Dickerson. Yes, I believe we could have spent more 
time. And she and her team have spent time with us, and I do 
understand that that could have been more optimal in 
circumstances in which we might have had meetings and taken 
notes and been able to put those in the file to just be able to 
access how a decision was made. And going forward, I accept 
that and we will apply that to our project planning.
    I have no doubt, though, sir, that had we done that for 53 
recommendations, and the small team we have, I would be sitting 
here telling you today that perhaps we had only completed 
perhaps a third of them. That does take time. And I did believe 
that a lot of the stakeholder input was embedded in the 
methodology of prior studies, that a lot of these 
recommendations had been validated, the outcomes had been 
specified. And it would have been a good action, I think, to go 
back and revalidate as we moved along. We focused, instead, 
with the resources that we had, we applied that to getting them 
done.
    We also have only been a team for about 6 months now. We 
only modernized at the end of last summer. And so, now is the 
time that we logically should be looking to assess where we go 
with project planning. And I think they have offered us some 
very good tools for, going forward, how we can apply those 
sensibilities and those internal controls to future project 
planning.
    Mr. Cummings. Let me say this, Ms. Dickerson. First of all, 
do you deem me to be a reasonable person?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Thank you. And we had agreed that these 
things would be done in a certain period of time, did we not?
    Ms. Dickerson. We did.
    Mr. Cummings. And just like you just told me about the 
manual, you gave me a certain time that you would be able to 
get it done, and I probably, just knowing me, I probably gave 
you an extra--I gave you more time than you even asked for. And 
so, when you say that, you know, you didn't have time or 
whatever, to be frank with you, that bothers me. Because I 
think I have been--you admitted I was reasonable, and I went on 
your timeline and gave you extra time. So I don't buy that.
    But let me say this. And I think this is what Ms. Ekstrand 
is getting to, and this is what I am getting to. You were 
talking a moment about our watch, your watch, and I appreciate 
that. Those are words that I use quite often, by the way. But 
it is one thing to produce something; it is another thing to be 
effective with it. And we need the combination.
    I would almost rather for you to do 20 things and they be 
effective than 50 things and they not be effective. Do you know 
why? Because, to me--and this happens a lot up here on Capitol 
Hill, by the way, so it is not just one agency--to me, it 
becomes a waste of time, and time is very, very significant. 
And so I am always trying to figure out, how do we become most 
effective and efficient in what we do so that, whatever we 
produce, it has an effect and it has the effect that we want?
    And so, when I listened to Ms. Ekstrand and I read the GAO 
report, it seems like the essence of this report is basically 
saying we could have combined, even in the short time that we 
had, we could have combined this--made sure that we had these 
goals going along, as we went through our checklist, making 
sure we had the goals coinciding and having a measuring tool.
    And I think the measuring tool is very, very important, 
because I think we want to know our progress. And you know 
what? It is also important from a morale standpoint. I want my 
staff to know that they have achieved something so that they 
can go out there and say, "Okay, we can keep this going." And I 
also would want them to know that, if we were not doing 
something that was not being effective and efficient, that we 
had enough information to change course so that we could get on 
that effective and efficient path.
    Does that make sense?
    Ms. Dickerson. It does, sir. Absolutely.
    Mr. Cummings. And so, I--let me just ask you a few more 
questions.
    Ms. Dickerson. Okay.
    Mr. Cummings. Now, do you now intend to develop measurable 
outcomes? It sounds like you are.
    Ms. Dickerson. Yes.
    Mr. Cummings. And how do you go about doing that?
    Ms. Dickerson. Well, for example, for the PII, there is a 
test embedded, but we can assure that people who undertake the 
training online actually submit to the test and a score is 
established, and make sure that they send that information to 
us to certify that they have passed the test and they are 
sufficient in handling personally identifiable information.
    Mr. Cummings. Now, when you take this, when you look at 
your 52 recommendations and the 53rd that you are about to have 
done within the next 6 weeks, I am sure there are certain 
things that really cry out for outcomes and measuring tools. Is 
that right, Ms. Ekstrand?
    Ms. Ekstrand. That is right.
    Mr. Cummings. And some of them may not be as significant. I 
mean, it may not be as significant to have them. Is that right?
    Ms. Ekstrand. Yes, exactly.
    Mr. Cummings. Okay. And I guess what I would like to see 
you do, if you haven't done it already, is to go through those 
that really need the very things that Ms. Ekstrand talked 
about--that is, measuring tools and some kind of outcome goals 
or whatever--and provide those to us within a reasonable time, 
as to how you plan to carry that out.
    Are you following me?
    Ms. Dickerson. Yes.
    Mr. Cummings. Now, how much time will you need for that? I 
want you to be reasonable, because I am going to have you back 
up in here, so I don't want you to----
    Ms. Dickerson. If I had the opportunity to talk to the 
people I am going to be working with on it, my team, I would 
like to be able to provide it for the record, if possible. But 
I could attempt to commit to something right now without that 
input.
    Mr. Cummings. Okay, no, that is fine. But I don't want it 
to be--I would like for you to get us an answer within, you 
know--before the close of business on Friday.
    Ms. Dickerson. Oh, yes, absolutely.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6291.012
    
    [GRAPHIC] [TIFF OMITTED] T6291.013
    
    [GRAPHIC] [TIFF OMITTED] T6291.014
    
    [GRAPHIC] [TIFF OMITTED] T6291.015
    
    [GRAPHIC] [TIFF OMITTED] T6291.016
    
    [GRAPHIC] [TIFF OMITTED] T6291.017
    
    Mr. Cummings. And then we will hold you to it. And then 
that will be a part of the next hearing with regard to this 
whole issue, okay?
    Ms. Dickerson. Yes.
    Mr. Cummings. I am going to come back, but I would like to 
yield now to Mr. LoBiondo. 
    Mr. LoBiondo. Thank you, Mr. Chairman.
    For Ms. Dickerson, how many complaints of inhospitable work 
conditions for military and civilian members do you receive on 
an annual basis? And how does the number and nature of 
complaints compare to those reported by other military services 
and the Federal agencies?
    Ms. Dickerson. The inhospitable work conditions are----
    Mr. LoBiondo. Complaints about work conditions.
    Ms. Dickerson. Oh----
    Mr. LoBiondo. Civil rights complaints.
    Ms. Dickerson. Civil rights complaints might not 
necessarily--I would have to look into exactly how many had to 
do with working conditions. I am sorry, I don't have that 
particular number right in front of me.
    Mr. LoBiondo. And then you will check and see how that 
matches up against other military services?
    Ms. Dickerson. Yes.
    Mr. LoBiondo. And you will get back to the Chairman and the 
Committee on that?
    Ms. Dickerson. Yes, I will.
    Mr. LoBiondo. Okay. That was the question I had. Thank you.
    Mr. Cummings. Ms. Dickerson, you indicated at our last 
hearing back in June 2009 that you had filled all six of the 
new positions assigned to OCR. I think you had one that you 
were still interviewing for, though, weren't you?
    Ms. Dickerson. That is right.
    Mr. Cummings. But they have been filled now?
    Ms. Dickerson. They have all been filled, yes.
    Mr. Cummings. Okay. And so, how many of the 45 full-time 
civil rights service providers are in place, and how many 
vacancies exist now?
    Ms. Dickerson. I believe we have nine vacancies right now. 
And, including our field personnel, though, we have 69 total 
positions now.
    Mr. Cummings. And so you have nine vacancies?
    Ms. Dickerson. Out of 69, yes, sir.
    Mr. Cummings. Okay. And when do you expect those to be 
filled? Or are you planning to fill them?
    Ms. Dickerson. There are some--some announcements are out 
right now, and within the next few weeks the others will be, as 
well.
    Mr. Cummings. Now, the GAO notes that the executive 
assistant with the Civil Rights Directorate will leave the 
position in June of this year and argues that without 
documentation of the decisions made in the design, 
implementation, and review of the action plans you undertook to 
implement the 53 recommendations, the knowledge that the 
official in the executive assistant's position had will leave 
with him.
    What is your comment on this?
    Ms. Dickerson. Yeah, we will very much miss this officer, 
Commander Obuwaji. He has just served very well and was very 
much a focus point of us moving to modernization and 
implementing the 53 actions.
    And as with the lieutenant who left our office, we will ask 
Commander Obuwaji to retroactively attempt to give us as much 
knowledge--he will turn his files over, of course, the ones 
that are there. But if there are other things that he can 
recall for the record, we want to ensure that he leaves us as 
full and complete a record as possible.
    And that happens often with military transfers. There is a 
process of turning over files and records. And because of what 
has been noted to us, we definitely will ensure that we go even 
the extra mile to make sure that he transfers as much knowledge 
as possible.
    Mr. Cummings. And you see--and I think that is just the--I 
mean, it really shows what Ms. Ekstrand was just saying. I 
mean, that is just a perfect example of why all this 
documentation is so important to have in addition to the other 
things, the goals and the measuring tools and so on.
    Do you believe that military officers now in the CRD, do 
they see it as a desirable assignment that will make them 
promotable? If so, how do you know this, and why do you think 
this?
    Ms. Dickerson. I believe so, by and large. I mean, 
certainly everyone would have their own assessment and opinion, 
but it certainly does seem to be, I believe, both the military 
officers and the enlisted personnel. And we strive, especially 
since we modernized--and the people in the field, many of them 
are enlisted personnel who are equal opportunity specialists, 
and they report up to us through headquarters. We have gotten a 
lot of data points from them about how we can make the 
situation work and the assignment desirable.
    Yes, it is a--for example, in the field, these personnel, 
the military personnel who work for us, they work directly with 
the inner circle of the command, advising them on issues. We 
have to make sure that they have a private place where they can 
conduct counselings. They travel and they deliver training to 
our workforce. It takes, you know, a very mature individual who 
really has, you know, the opportunity to relate to people to 
carry out that assignment, and they carry it out very well. I 
am very proud of the people that we have within our 
directorate.
    Mr. Cummings. Let me--you know, you were part of this civil 
rights--this summit the Coast Guard did.
    Ms. Dickerson. Yes, sir, the diversity summit, which was--
--
    Mr. Cummings. Recent.
    Ms. Dickerson. Yes.
    Mr. Cummings. Within the last week or 2.
    Ms. Dickerson. Uh-huh.
    Mr. Cummings. Did you find that to be helpful?
    Ms. Dickerson. I did. I have attended a lot of diversity, 
EEO, all types of summits and training during my long career in 
this field, and I thought the speakers were excellent, the 
discussions were excellent. I just thought it was really top-
notch.
    And while you didn't ask me the question, I did receive 
tools. There were books and follow-up CDs and videos made 
available to attendees that they will take back to their 
workplaces and implement ideas and best practices.
    I really thought it was very, not only inspirational and 
motivational, it also was--it just was just an excellent 
practice. And I hope that they can do it again.
    Mr. Cummings. Let me ask you this. One of the things that I 
am assuming that you would want to do is put yourself out of a 
job.
    Ms. Dickerson. Yes.
    Mr. Cummings. In other words, so that we don't need an 
office to be doing these kinds of things. And I was trying to 
figure out what--I mean, what kinds of things are you all doing 
to try to convince people that diversity is not our problem but 
our promise, so that people begin to think differently? I was 
just wondering.
    Ms. Dickerson. Yes, well----
    Mr. Cummings. Because sometimes we are so--I am going back 
again to Ms. Ekstrand. She didn't say this piece, but sometimes 
I think we can be so busy checking off a list that we don't 
look at the bigger picture and how do we create a climate where 
you can almost eliminate things off the list because people are 
already doing it.
    Ms. Dickerson. Yes.
    Mr. Cummings. Go ahead.
    Ms. Dickerson. Well, I would just clarify first that, for 
the EEO, our mission really is to eradicate discrimination in 
the Federal Government. And as we do that, as people come to 
understand that Coast Guard is a place where you will be 
treated fairly and, if you do have a problem or a challenge, 
there will be a process that can take in your complaint, it 
will be dealt with fairly--and so, that is what we attempt to 
do.
    As long as the Federal Government draws from all pockets of 
America, the Federal Government workplace is going to be 
representative of all of the different perspectives and 
thoughts embodied in the American public. And so, you know, at 
times we have the opportunity to direct people's attention 
differently.
    And I think that is what the diversity summit did. There 
were speakers who I know were able to give people examples of 
the discrimination that they had faced and why people should 
rethink how that occurs. Because sometimes people who enjoy 
freedoms and enjoy respect, they forget that everybody else in 
the country doesn't enjoy that same freedom and that respect.
    And I remember, especially, a person of small stature was 
one of the speakers, and she talked about even the process of 
going to the grocery store and how her respect and dignity 
could be removed in terms of how people related to her as a 
person who was of small stature.
    And I think that things like that--I am sure that summits 
like that help to open people's eyes in a different way. We can 
show them a lot of flow charts about how to intake processes 
and what the mediation steps are. But until people start to 
examine their own consciousness--and we are not going to get 
everybody with the flow charts, but we are going to get some of 
them because some people are motivated that way. Other people 
are motivated by examining their own actions and actions of 
themselves and their families. And I think it causes people to 
redirect their thinking and wonder where all of those thoughts 
came from.
    Mr. Cummings. Before I go to the Chairman of our Full 
Committee, I want to be ask you something, Ms. Ekstrand, 
because I am trying to put a timetable together here.
    Your findings would seem to suggest that, even though the 
Civil Rights Directorate has checked off 52 of the 53 
recommendations, they are not really done implementing the 53 
recommendations.
    How long would it reasonably take for the Civil Rights 
Directorate to develop measurable outcomes for the 53 
recommendations? And how much time would need to elapse for 
meaningful measurements of performance to be completed?
    Because I am hoping that my Ranking Member will join me in 
asking the GAO to come back with an assessment of the 
effectiveness of the changes in the civil rights program. And 
you could give them a year, maybe they could come back.
    In other words, I am trying to figure out--I want them to 
be able to do what Ms. Dickerson says she is going to do 
pursuant to your recommendations, but I also want to make sure 
that it coincides with you--I want to make sure that you will 
have enough time, GAO will have enough time, to assess what 
they have done and look at the effectiveness and efficiency of 
those goals, using those measuring tools that you are 
suggesting.
    So what would you say?
    Ms. Ekstrand. Chairman Cummings, just a few minutes ago, 
you talked about basically triaging the 53 recommendations in 
relation to importance. They also need to be triaged in 
relation to how quickly you can anticipate seeing a change 
because of them.
    Mr. Cummings. Right.
    Ms. Ekstrand. You know, it is very difficult to give a 
timeline because it is going to be highly variant. I should 
think that there would be some evidence of progress in some 
areas in a year. I would think that some things may take 
longer, some things far shorter.
    For example, in relation to the PII handbook, it is in the 
field now. Ms. Dickerson indicated that there is some testing 
that gets done in relation to staff understanding how it is 
used. You know, there could be other checks, such as, you know, 
spot checks of people's desks to make sure that there is not 
personal information sitting out in the open. There could be 
other types of training in relation to personal information 
handling that could be--could have a follow-up to make sure 
that training is understood and that the importance of the 
security of this kind of information is tested.
    But for other things, it may take substantially longer and 
more time and effort.
    Mr. Cummings. Well, what we are going to do--I am going to 
ask also, of course, our Chairman, Mr. Oberstar, to join us in 
the request--I think what we will do is we will--Ms. Dickerson, 
the document that you are going to give me on Friday by the 
close of business, I want you to kind of prioritize these, the 
various recommendations, and let us know--you know, you can set 
some goals. I will give you another week for that, because this 
is going to take a little longer, I think. And give us some 
kind of game plan.
    And you are right, you are right, Ms. Ekstrand, certain 
things are going to require certain amounts of time or 
whatever. Can you kind of lump them in categories for us? And I 
am sure you all can consult with each other, can you not? Is 
that all right? No? Yes?
    Ms. Ekstrand. We can, to some extent.
    Mr. Cummings. Yes, okay. And then I want you to then--we 
will come back--we will give you a year, and we will come back 
in a year, God willing, and take a look at all of this, okay?
    Ms. Dickerson. Yes.
    Mr. Cummings. And we will be making a formal request, Ms. 
Ekstrand, with regard to the assessments, the measuring tools, 
and the outcomes and the things that you recommended, to see 
where we are in a year, all right?
    Ms. Ekstrand. Yes.
    Mr. Cummings. Mr. Oberstar, Chairman of the Full Committee?
    Mr. Oberstar. Thank you very much, Mr. Chairman, for your 
persistence on this matter, and that of Mr. LoBiondo, the 
partnership that you have established with him. And Mr. Mica, 
at the Full Committee level, is very supportive of this 
initiative. You have done a yeoman's service. You have had 
several hearings of this issue.
    And I see progress on the Academy side. The 10 percent 
increase in minorities, according to the Coast Guard admissions 
data report for the class of 2014, indicates that there is 
significant progress being made in bringing minorities and 
opening the Academy to a wider participation from the public.
    And declaration date is still a week away, so there is 
still opportunity for others to either be accepted or accept 
their offered appointments, and then the Coast Guard can go to 
its wait-list and draw upon those who are another tier of 
candidates.
    So I think that is a very significant part. That is where 
we started 2 years ago, Mr. Chairman, in working on this 
matter.
    The last series of questions, Mr. Cummings asked about 
documentation and the transparency and the accountability 
issues. Ms. Ekstrand, in your review of Coast Guard activities, 
do you see a change in spirit in the Coast Guard? Is there a 
culture of compliance with minority participation, greater 
access, greater involvement of minorities in all levels, 
command levels, all the way through the work?
    Ms. Ekstrand. I wish I could answer that question, but I 
don't have the range of knowledge to answer it. I do think that 
Ms. Dickerson's office has been very proactive in trying to 
institute change.
    Mr. Oberstar. Ms. Dickerson, you are right there in the eye 
of the storm on this issue--not that it is a storm, but you are 
right on the front line. Do you see a change in attitude in the 
top command in the Coast Guard?
    Ms. Dickerson. Oh, yes. I do. You know, as a minority and a 
woman in the Coast Guard, I am very motivated to make it, for 
personal reasons, a place where everyone can really succeed to 
their fullest, and I do. Especially, Admiral Allen, in the past 
year, has directed all of the senior executives, and we 
designed and initiated a special seminar for everyone who is in 
leadership at Coast Guard, and we have now conducted three 
sessions. It is a significant devotion of time of very senior 
people, and we spend 2 days, three times last year, getting 
together on these very issues and talking about where the Coast 
Guard is going and making sure everyone understood their part 
and their role in it. And that has nothing to do but permeate 
throughout the organization.
    And I think that it is perceptible. I think when people not 
only can see that things are planned, but they actually see 
that things are happening. That, as well, affects morale, and 
in the diversity divisions, diversity summit was one 
demonstration of that.
    Mr. Oberstar. Mr. Chairman, I think that is the most 
satisfying mark of progress, to have that kind of report, that 
is a great tribute to the effort you initiated that we have 
partnered with and engaged in over the last 2 and a half, 3 
years, and I think that is, if that continues to grow and 
manifest itself, we will see an energized Coast Guard that 
reflects America in a more complete and satisfying and 
productive way than it has done in the past. It is the oldest 
of our service organizations.
    The very first work--I will correct myself. The third act 
of the First Congress came from the Committee on Rivers and 
Harbors, on which I served as clerk when I started here in, not 
in 1789 but in 1963, although sometimes it sounds like I have 
been around here that long. But the first act of that First 
Congress from the Committee on Rivers and Harbors was to 
establish a lighthouse at Hampton Roads. The second act of the 
First Congress from the Committee on Rivers and Harbors was to 
establish a lighthouse at Cape Henry on the entrance to 
Chesapeake Bay. And the third act was to establish the Revenue 
Cutter Service to exact duties from inbound cargoes to pay the 
debt of the Revolutionary War. The Revenue Cutter Service 
became the Coast Guard.
    Our Committee has been invested with the Coast Guard from 
its inception in law in this country. We want to see the Coast 
Guard continue to perform the extraordinary service that it 
does, year in and year out, saving lives and protecting our 
coasts and making our waters safer.
    But we also want the Coast Guard to reflect America in a 
more complete way than it has done in the past. And I think the 
skepticism with which these efforts Mr. Cummings has led and 
which I have partnered and supported vigorously, the skepticism 
at the beginning and the defensiveness of the Coast Guard has 
given way, in my experience, to a broad acceptance and a 
welcoming and a willingness to do the things that you have just 
described, have those diversity summits and have this 
counseling. We want to be sure that the transparency continues, 
that the accountability continues, and we will do the 
accountability side here in this Committee with Mr. Cummings 
leading the way.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    I apologize for my belated arrival. I had two other 
hearings, and I missed most of the first panel's testimony. But 
appreciate you all being with us.
    And I have no questions, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Dickerson, let me say this, that, first of all, we, I 
don't want you to get the impression that we are not--we do not 
applaud what has been accomplished. And I think the GAO report 
has fairly given credit for that.
    But again, I think the goal must be, how do we make sure 
that we are effective and efficient? Period. Period.
    People are putting a lot of time and effort into dealing 
with the recommendations, a lot of the government resources 
being used. But you know, the most important thing is that 
there are a lot of people who are depending upon these things 
being successful. And you just, with a lot of compassion, 
talked about your--that you have personal reasons to see that 
this is successful.
    Well, I am just trying to make sure that, as you say, when 
your watch is over, that you will be able to look back and know 
that, not only were things checked off a list, but they had the 
impact that you wanted them to have and that your agency wanted 
them to have.
    I think that this is a golden moment for your division. And 
the reason why I say that is because I have talked to Admiral 
Papp, our new commandant, and he is just as committed to making 
sure that we carry out these goals, just as you are, and so we 
have got to take this moment and use it.
    But, again, you know, I just don't want a report. As my 
mother used to say, she doesn't like a lot of motion, 
commotion, emotion, and no results. We have a lot of that up 
here. We need results, and that is what we are talking about, 
because those results, like you said, you can talk about 
statistics, but those statistics are people. And it is bigger 
than even the employees, the civil servants or even the 
military people in the Coast Guard. It is bigger than that. It 
is about their families, and it is about generations yet 
unborn. And so I thank you very much.
    Thank you, Ms. Ekstrand. You were outstanding. And we are 
very glad that we have this ability to have the recommendations 
from GAO. And by the way, the report was quite thorough, and 
thank you so much.
    So the key is that hopefully we can take that report and, 
as Ms. Dickerson has already said, extract from it the things 
that are, take those recommendations and use them to accomplish 
the things I just talked about.
    Thank you very much.
    We will move on to the second panel.

     TESTIMONY OF REAR ADMIRAL RONALD T. HEWITT, ASSISTANT 
COMMANDANT FOR HUMAN RESOURCES, UNITED STATES COAST GUARD; AND 
  REAR ADMIRAL J. SCOTT BURHOE, SUPERINTENDENT, UNITED STATES 
                      COAST GUARD ACADEMY

    Mr. Cummings. We will have Rear Admiral Ronald Hewitt, who 
is the Assistant Commandant for Humans Resources with the 
United States Coast Guard; and Rear Admiral J. Scott Burhoe, 
who the is Superintendent of the United States Coast Guard 
Academy.
    I understand you both have statements.
    Rear Admiral Hewitt, we will hear from you first. Thank you 
for being with us.
    Admiral Hewitt. Good morning, Mr. Chairman, distinguished 
Members of the Committee. I am Rear Admiral Ronald Hewitt, 
Assistant Commandant for Human Resources, United States Coast 
Guard. It is my pleasure to be testifying on the Coast Guard's 
diversity efforts. I ask that my written testimony be entered 
into the record.
    Mr. Cummings. Without objection.
    Admiral Hewitt. Mr. Chairman, my message today is the Coast 
Guard remains firmly committed to building and sustaining an 
organizational climate in which people of diverse backgrounds, 
culture, race, ethnicity and religion are fully included, 
valued and treated with respect and dignity. Our service 
continues to recognize that improving total work force 
diversity is not only a moral obligation but also a mission 
effectiveness and readiness issue. We continue to take bold and 
decisive action to promote a greater awareness of and full and 
equal access to the entire spectrum of Coast Guard 
opportunities for our entire work force.
    I will now highlight some of our most recent 
accomplishments. First and foremost, we released the Coast 
Guard's Diversity Strategic Plan in September of 2009 that sets 
clear and concise direction for Coast Guard leadership. A copy 
has been provided to you. To achieve the goals in the Diversity 
Strategic Plan, we are using a deliberate and focused campaign 
plan known as OPTASK DIVERSITY, which provides an operational 
framework to achieve our diversity vision by aligning and 
linking our goals with tactical field-level actions and 
measurable performance objectives.
    To ensure that our members understand the tenets of the 
diversity, we held a diversity leadership summit last week that 
brought in members from around the Coast Guard for training.
    Mr. Chairman, I thank you and other others for taking time 
out of your very busy schedules to participate. The information 
provided at the diversity summit will continue to be heard 
throughout the service from participants who have returned to 
their duty stations and are actively passing on what they have 
learned. And we also are using videos of the summit to promote 
the importance of diversity to current and potential Coast 
Guard employees to reinforce our strong commitment to build and 
sustain a community of inclusion.
    Additionally, we assigned a captain to serve as the liaison 
with the National Association for Equal Opportunity and Higher 
Education, NAFEO, and the Historically Black Colleges and 
University, HBCUs, who is responsible for partnering with 
leadership of NAFEO and the presidents of the HBCUs to help 
strengthen the relationships between the Coast Guard and these 
institutions.
    Since bringing on our liaison, the Coast Guard for the 
first time made the HBCUconnect.com top 50 employers, ranking 
in at number 16 of 50 recognized employers for 2009.
    Our continuum of effort and investment is producing results 
as we press forward in our enlisted and officer recruiting 
programs. To date, in fiscal year 2010, our active duty 
enlisted recruits are 36.2 percent minority and 21.6 percent 
women. Fiscal year 2010 was our first recruiting year after 
changing the college student pre-commissioning initiative 
eligibility criteria to focus on minority-serving institutions. 
As a result of this refocused officer recruiting strategy, 67 
percent of the applicants are minorities, a 25 percent increase 
compared to last year.
    Mr. Chairman, total work force diversity remains critically 
important to the United States Coast Guard. Diversity is a 
mission effectiveness and readiness imperative for us. We will 
continue to be proactive and forward leaning to achieve our 
diversity vision, which is to be recognized as the employer of 
choice in the Federal Government for recruiting, retaining and 
sustaining a ready, diverse and highly skilled total work 
force. With your continued support, we will achieve that 
vision.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    Mr. Cummings. Rear Admiral Burhoe. Thank you very much.
    Admiral Burhoe. Good morning Chairman Cummings, Chairman 
Oberstar, distinguished Members of the Subcommittee. My name is 
Rear Admiral John Scott Burhoe. It is a privilege to testify 
today regarding diversity at the Coast Guard Academy. I have 
been superintendent since January of 2007. I request that my 
written testimony be entered into the record.
    Mr. Cummings. Without objection.
    Admiral Burhoe. A diverse officer corps is essential to 
perform the Coast Guard's missions, and it is necessary that 
the path to leadership be visibly open to talented and 
qualified individuals of every race and ethnicity. A diverse 
student population adds educational benefits and is associated 
with enhanced critical thinking skills. The Coast Guard Academy 
is committed to a strategy that diversifies the corps cadets, 
faculty, staff and curriculum.
    Additional funding received, coupled with a full staff, 
allowed us to hire additional reserve support, increase 
targeted advertising, hire a professional company to improve 
online applications, and fund minority application visits. All 
this additional funding and staffing was directed at increasing 
the number of under-represented minority applicants.
    Completed applications for minority applicants rose 84 
percent, from 254 to almost 500. This increase led us to offer 
96 appointments so far to minority applicants for the entering 
class of 2014, which is almost twice the number offered at the 
same time last year. While it is still too early in the 
admissions process to predict with absolute accuracy, if 
acceptance rates hold true to historical averages, we should 
have between 20 and 24 percent of the class be underrepresented 
minority cadets.
    In addition, we anticipate admitting at least 50 under-
represented minority students into college prep. If all are 
successful, this will represent 17 percent of the class of 
2015.
    Our efforts must be expanded upon. We must resource them in 
a way that allows them to sustain and grow and a way that 
allows us to invest earlier in the admissions process.
    While we grew the under-represented minority inquiry and 
applicant pool, we did not anticipate the total number of 
applicants to increase so dramatically. Our total completed 
applications rose 32 percent this year, from almost 1,700 to 
2,200. This is more applications than we have received in the 
last 20 years, while the staff size remained constant. This 
increase created delays in processing all of the applications.
    While we raised the conversion rates significantly for 
minority applicants, these conversion rates still lag majority 
applicants. This increase in under-represented minority 
applications is a result of aggressive outreach and follow up 
with candidates and their families. It also reflects increased 
awareness of a climate of inclusion at the Coast Guard Academy, 
a climate that is welcoming and focused on retention.
    Over the last 2 to 3 years the Coast Guard has invested in 
the academy in ways that make us more attractive. We have added 
a new mechanical engineering classroom, a new student union, 
upgraded our physical fitness facilities, added a brand new 
barracks wing, and created an institute for leadership. This 
helps us compete for talent in an extremely competitive 
environment. The talent does exist, but we must work harder and 
make all of America aware of the opportunities available.
    Mr. Chairman, you have said that children are the living 
message that we send to a future we will never see. And you 
have spoken about how we must use our current positions to make 
things better during the relatively short time we have left in 
these positions.
    I share your commitment and your sense of urgency about 
diversifying the Coast Guard Academy. I also recognize that 
commitment is meaningless without actions and clear signs of 
improvement. We have taken action. We have shown improvements 
this year, and I am optimistic about the future.
    Diversifying the Academy has been the greatest challenge of 
my Coast Guard career, and I am determined to succeed at it.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions you or the Committee may 
have.
    Mr. Cummings. Thank you both very much.
    Rear Admiral Burhoe, let me just ask you a few questions. 
First of all, I was very pleased to hear you say that the 
talent is out there. It seems like every time we have one of 
these hearings, we have the certain writers and folks writing 
op-eds saying that if you concentrate on diversity, then there 
is a--that you lessen the quality of the Academy. And that 
upsets me to no end.
    And the question is not whether the folks are out there. 
They are out there. The question is, as you alluded, you have 
got to make sure you get to them and make an offer to them 
which they would want to accept. Am I right?
    Admiral Burhoe. Yes, sir.
    Mr. Cummings. You indicate in your testimony that over the 
past year at the Academy--and I am going to quote you in your 
written statement. It says, Our admissions system became less 
formulaic. The new holistic approach focuses on an applicant's 
capacity to contribute.
    Can you describe the specific changes you have made in the 
admissions process that make the process less formulaic and 
more holistic?
    Have you altered the weight placed on SAT scores or grade-
point average or extra curricular activities in admissions 
decisions? And if so, how?
    Admiral Burhoe. Yes, sir. When I say that it has changed 
from a more formulaic system to really a--what we look at now 
is capacity to contribute. We mention, when we put our career 
candidate evaluation boards together, we mention SATs one time, 
and what we mention is that people should look at a math score 
of around 600 for success in engineering. And that is the only 
mention of SATs in the guidance that we provide to those who 
review those applications.
    But really the Coast Guard Academy, over the last 6 or 8 
years, has changed from what used to be a very formulaic math 
score times two plus verbal times class standing. And what we 
did also is to add a series of questions in the application 
that really get to who the person is. Our top interest is in 
leadership and character; next is in academic potential and 
their ability to perform academically; and then really looking 
at their ability to be leaders in the Coast Guard.
    Mr. Cummings. How many minorities are on the wait list for 
appointment to the Academy?
    Admiral Burhoe. Right now, I haven't added them up, but I 
can tell you by minority group if that is okay with you, Mr. 
Chairman: 17 Asians, 14 African Americans, 12 Hispanic and 4 
Native Americans, and 398 white.
    Mr. Cummings. Can you tell us what the SAT scores of the 
minorities are on the wait list for a future appointment?
    Admiral Burhoe. I cannot, Mr. Chairman. But I can certainly 
provide that for the record.
    Mr. Cummings. According to data provided to the 
Subcommittee, dated April 19, the Coast Guard Academy has 
extended offers to 96 minority students, and 41 minorities 
students had accepted the offers. What is the Academy doing to 
try to ensure that the remaining 55 minority individuals accept 
offers for admissions made to them?
    Admiral Burhoe. What we are doing, sir, is to follow up 
with them. And we have staff members communicating to them. I 
have communicated with two myself, and we are reaching out to 
them by staff. We have a reservist who goes out and visits them 
at their homes, and this is the sort of outreach that I 
mentioned that is so important to us.
    Mr. Cummings. The Coast Guard invited 50 African Americans 
to the Academy earlier this year and helped them to complete 
applications. How many of these individuals were subsequently 
offered appointments to the Academy?
    Admiral Burhoe. Sir, I looked at that last night. I didn't 
write that number down. As I recall, it was only about as many 
as eight of those, but I don't recall that. I can certainly 
provide that for the record later. It was fewer than one might 
have expected based on inviting that many young people up. The 
purpose of that was to have them complete their applications.
    Mr. Cummings. I am going to just, just one other thing, and 
then I will turn, just two things, and then we will hear from 
our Chairman.
    I had made a recommendation, as a member of the Naval 
Academy Board of Visitors, I had asked you all to take a look 
at their program to work with them because they had an 
extraordinary--their numbers were just extraordinary with 
regard to minority recruitments. And I was just wondering, have 
you worked with them? Was it helpful? Have they been 
cooperative? So that when I go back to my board meeting in 
about 2 weeks, I can tell them whatever you tell me.
    Admiral Burhoe. Yes, sir. In fact, we invited Dean Latta to 
come speak with our Board of Visitors here in Washington. He 
went through what he refers to as the funnel of admissions. And 
I spoke with him last week at the Conference of Service Academy 
Superintendents, as well as added this to the agenda item for 
the Conference of Service Academy Superintendents, all of us 
speaking with Admiral Fowler about their success in this area.
    Mr. Cummings. What I am hoping for, Admirals, I am hoping 
that the Coast Guard will become a model with regard to 
diversity. I think so often we get just enough done to say we 
accomplished a goal. I want us to be the model so that other 
people will be emulating the Coast Guard. And I think if that 
is our goal, if that is our goal, not only will we have done 
the Coast Guard a great service, but we would have done the 
military operations of this country a great service. And so I 
want to thank you all for what you have done. And I will turn 
it now over to our Chairman of the Full Committee, Mr. 
Oberstar.
    Mr. Oberstar. Well, thank you very much, Mr. Chairman. I 
will be brief.
    You have covered it all very well and so has this 
strategic--diversity strategic plan and the diversity strategy 
map. I was just looking at this and I said, my goodness, you 
give the Coast Guard a directive, give them a good push in the 
right direction, and they come up with a campaign. This is just 
like you were going off to battle. This is terrific.
    But it has taken a while to get there, hasn't it, Mr. 
Chairman?
    But now you are there.
    And the partnerships, I was very impressed with the range 
of outreach to Thurgood Marshall College Fund Conference, Black 
Engineer of the Year Award, East Coast Asian American Student 
Conference, Women of Color, League of United Latin American 
Citizens Conference.
    I understand also that, Commandant Burhoe, that you had the 
African American student cadets at the Academy call, Admiral 
Hewitt, to call prospective applicants for the Academy and 
encourage them to pursue. Did you do that? And what were the 
results from that effort?
    Admiral Burhoe. Yes, sir. Well, really just to get them 
interested in applying, as well as I know that I wrote a 
personal letter to every under-represented minority who is 
currently in the enlisted work force to encourage them to apply 
to the Coast Guard Academy as well.
    Mr. Oberstar. That is terrific.
    Mr. Chairman, that is just exactly what we want to do, an 
active outreach program, not just setting up your lemonade 
stand on the side of the road and say, come on, pitch in and 
buy some of us. No, you are really out there recruiting and 
encouraging and giving the potential applicants reason to 
pursue their interests in the Coast Guard.
    I also understand that after the Coast Guard did a review 
of the college aptitude test, they found 10,000 African 
American high school students with a score of 1,200 plus. That 
is sterling. That is tremendous. There is a recruiting critical 
mass out there to work on.
    You also say in your submitted statement that you have 
established a liaison officer program for flag officers, 
members of the Senior Executive Service, to adopt a school of 
higher learning, including developing and maintaining 
relationships with minority-serving institutions. That is a 
terrific idea.
    And you do mention tribal colleges and universities. I 
would invite you to encourage Coast Guard Station Duluth to 
reach out to Fond Du Lac Community College right there next 
door to Duluth, and to the other tribal colleges in our, in my 
district. And of the eight members of the Minnesota Chippewa 
tribe, six are in my district. And they are eager for new 
opportunities and new learning experience.
    And there is, among the Anishinabe, Ojibwa, Chippewa 
people, a long history of the waterborn service. They built the 
best canoes. They harvested the wild rice with them. They 
fished. They hunted with the canoe. It is still part of that 
tradition. But to have a career in the Coast Guard, and we have 
a station right there in Duluth as a model for them, would be a 
great opportunity.
    And Mr. Chairman, I don't know, and Mr. Coble, I don't know 
if you have had the same experience I have, but I have done 
very significant outreach with myself and with my district 
office staff to recruit students to apply for the academies, 
including Coast Guard, of course, Merchant Marine and others. 
Five years ago, we had more presenters than applicants, than 
students; I won't say applicants, than students. We had at 
least 30 people from the Air Force, West Point, the Naval 
Academy, Coast Guard, Merchant Marine; we had over 30 
presenters and 15 students.
    Now, I think some of that is the reaction against the Iraq 
war. I saw a dip in academy applications at the time of the 
Vietnam war, and then it just soared up. We would have 150, 200 
applicants for essentially four positions. And now I would say 
the last year, I had 9, 9 total applicants.
    And we have encouraged the academies to do outreach in our 
districts. Of course, West Point and Air Force would come 
looking for hockey players. They were really excited when they 
got a good goalie or a good winger or a center, you know. Boy, 
they will offer them the moon.
    But there is much more. This is a $100,000 education and a 
lifetime career, and I want kids to understand that.
    You know, in my congressional district, in the iron-ore 
mining country, Duluth and north, during World War II, we had 
the highest rate of enlistment in the whole Nation. We also had 
the highest rate of gold star mothers, because you had so many 
kids in the line of fire. And that patriotism hasn't abated at 
all.
    What is missing is to see the uniformed service as a career 
opportunity. And compared to the other academies, I think the 
opportunities for the Coast Guard are the best. You have your 
own TV channel, the Weather Channel. And when I go and talk 
with high school groups and all, I tell them, turn on the 
Weather Channel, see what the Coast Guard is doing, because 
they are out there saving lives. It is a great opportunity for 
you.
    And I think that the outreach initiatives that you are 
undertaking are unprecedented. I have never seen that before; 
43 years of service in the Congress, 12 years as staff and 
others as a Member, I have just not seen that kind of effort.
    I commend you for this sweeping outreach effort. We will 
continue to follow up with you and to assure that there is 
follow through.
    And the retention, that is the final point I want to 
inquire about. And that is, what happens, you have three 
captains in the Coast Guard and above who are African American, 
but few stay beyond the 20-year retirement option? Admiral 
Hewitt, why is that? Do you have a handle on this? Are you 
inquiring into it?
    Admiral Hewitt. Yes, sir. We have a study going we just 
commissioned to look into that, what is the retention rates? We 
are fortunate at the Lieutenant Commander, Lieutenant, 
Commander, level the actual retention for minorities is 
actually higher than whites right now. But the problem is, we 
don't have the numbers. So the big thing is the recruiting, and 
we are working with the Academy to get the intake where it 
should be.
    But at the same time, we are spending a lot of time on what 
do we do for the retention, and which the summit was actually a 
kick off for that, because one of the key things is we have got 
to make sure that we could have a leadership ability to lead a 
diverse organization. And so we are trying to change that 
culture within the Coast Guard so we can better respond to a 
diverse organization to keep people longer and so that there 
isn't differences between races or ethnicities on their tenure 
in the Coast Guard.
    Mr. Oberstar. Thank you for undertaking that.
    And when you have completed and you have evaluated your 
report, it would be good to have a consultation with Mr. 
Cummings and the Republican Members of the Committee and 
myself. We would be very interested in your report.
    In closing, I would just say, I think we are one hold in 
the U.S. Senate away from moving to a conference, getting the 
Coast Guard bill through the Senate and moving to conference 
after goodness knows how many years it has been since we have 
had an authorization from the Coast Guard. But just one hold 
away, and then Senator Rockefeller has indicated to me that 
they will be able to move their bill. We will have a very brief 
House/Senate conference, and then much of the structural change 
and reform that are in this bill will begin to take place.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Chairman Oberstar and gentlemen, good to have you all with 
us.
    Admiral Burhoe, let me put a two-part question to you. How 
does the open application process or the current process impact 
the size and quality of the applicant pool for the Academy, A? 
And B, how does the Coast Guard Academy minority enrollment 
compare with other service academies?
    Admiral Burhoe. As far as the open application, I don't 
know whether I completely understand. Are you speaking of that 
as they apply, we review the application as it comes in, sir?
    Mr. Coble. That would be part of it, yeah.
    Admiral Burhoe. Yes. I think that the open application, 
that the current way that we receive applications is working 
well, except in one area. And that is, as you look at the 
areas, the number of people who have applied at each times, we 
received half of our white applications by January 15, but only 
about a quarter of our under-represented minority applications, 
which says to me as though we need to be more aggressive in our 
early outreach to--and some of that will be through advertising 
on Clear Channel, where we have some advertisements on BET, a 
number of advertisements so that more people will know about us 
to know to apply. So I think, but, in general, I like the open 
application.
    Mr. Coble. And how does it compare with the other services?
    Admiral Burhoe. I would say that, as our total corps, I 
know more about the Naval Academy than I have looked at the 
other services, and I know that we are not as diverse as the 
Naval Academy. We are more diverse than the Merchant Marine 
Academy, and I am pretty confident to say that the Air Force 
and the Army are more diverse than us as well.
    Mr. Coble. Admiral, have you all examined what changes 
would be required to transition to a nomination-based system as 
is proposed in the House-passed bill?
    Admiral Burhoe. We have done really very little work other 
than conversation about that. So I would say the short answer 
to that question, Congressman, would be, we have not done 
significant work on that.
    Mr. Coble. Thank you Admiral.
    Admiral Hewitt, let me insert your oars into these waters, 
if I may. What steps have been taken so that future 
superintendents and Coast Guard Academy administrators can 
continue the work of improving both access to the Academy and 
the retention of minorities?
    Admiral Hewitt. Sir, I am not quite sure I follow the----
    Mr. Coble. Pull that mike a little closer to you Admiral. 
Do you want me to repeat my question?
    Admiral Hewitt. Yes, sir.
    Mr. Coble. I said what steps have been taken so that future 
superintendents and Coast Guard Academy administrations can 
continue the work of improving both access to the Academy and 
retention of minorities?
    Admiral Hewitt. Well, from the start, the commandant has at 
this time in our fitness reports required us to actually 
provide what are we doing in diversity. So this is the first 
time it has ever been visible in actually from the reporting, 
which if you want to achieve outcomes, you have got to actually 
make it part of your reporting process. And so with that, all 
the officers are heavily engaged with understanding diversity 
and rolling it out within theirs.
    Part of the strategic plan and OPTASK DIVERSITY is that the 
three star commands, LANT area, PAC area, our Chief of Staff 
and our Deputy Commandant for Operations, each have to do an 
action plan for diversity and they roll it out to all the units 
underneath them, and they are rolling it up. And so, with that, 
they are all engaged with the outreach from the recruiting 
side, going out to areas in their areas of responsibility, and 
then for also sustaining the diversity within and making sure 
we have a superior work environment so that every member is 
able to achieve the best they can be.
    Mr. Coble. Thank you, Admiral.
    Finally, let me put my final question, and I may be 
amplifying my ignorance by asking this question, but gentlemen, 
to what extent, if any, are females classified as minorities in 
your database?
    Admiral Hewitt. Sir, they are not. We have gender, and then 
there is race and ethnicity. So we track gender as one 
category, race and ethnicity.
    Mr. Coble. I got you. Thank you both for being with us, 
gentlemen.
    Mr. Chairman, I yield back.
    Mr. Cummings. Thank you very much.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Well, that wasn't so hard, was it?
    Congratulations. Not nearly, I want to concur with Chairman 
Cummings and also Chairman Oberstar, clearly, you can't dispute 
that there has been some progress, so congratulations. Of 
course, it is only the beginning, and we want to stress that. 
And I think you understand that.
    But given quite the I would almost say flogging that you 
received before, you are well deserved of a smile at least from 
me, so congratulations.
    A couple of questions. Number one, Ms. Ekstrand laid out in 
her GAO report some recommendations for both of you. Do you 
concur with these recommendations and are committed to 
addressing them?
    Admiral Hewitt. Yes, ma'am.
    Ms. Richardson. Okay. So that will save me of having to go 
into detail about that.
    I want to commend your staff. I had some folks that did 
come see me immediately after the previous hearing that we had 
wanting to follow up on some of the comments that I made and 
some suggestions of what we could do, so I think it is 
important to acknowledge that, and that you are aware of it.
    I do notice in your testimony, Rear Admiral Hewitt, that 
you mention the HBCUs, which I am strongly supportive of. But 
if you recall in my conversation, what I also stressed was that 
there were other colleges and high schools and so on that have 
various organizations that have groups that you could still 
reach out and I think get a large population of folks; meaning, 
I went to UCLA and USC, not University of South Carolina but 
University of Southern California, and so I was a member of 
both of the BSAs and various groups. So what have you done to 
approach those other colleges and universities and high schools 
and so on of their specific gender or ethnic groups to increase 
the outreach?
    Admiral Hewitt. Yes, ma'am. The HBCU liaison was just added 
this last year. We have had, for several years, a HACU or a 
Hispanic Associations of Colleges and Universities liaison, a 
captain that is down in San Antonio. And then we are also 
partnering with NSBE, in terms of--which is the National 
Society for Black Engineers, and HENAAC, which is now Great 
Minds in STEM, to look at ways--in fact, we are doing a pilot 
up in Cleveland right now that is called STEM up or VIVA 
Technology, which is working with children to get them 
encouraged to move out into science, technology, engineering 
and math majors. And we are looking at taking that on the road.
    Ms. Richardson. Let me be more specific of what I am 
saying. I did read the other groups that you are outreaching 
with. My question is, if I were to go to UCLA today or USC 
today, and if I were to go to the Black Student Association, 
would I see any information about your diversity program with 
the Coast Guard?
    Admiral Hewitt. No, ma'am.
    Ms. Richardson. Okay. So my recommendation to you, and it 
is actually what I said last time, and I realize you have to 
start someplace, and the HBCUs was a good concentrated effort 
of where to start. But what I would also encourage you to 
understand is not every member, not all women, or not all 
Hispanics, or not all African Americans, or not all Asians, 
though, are going to these selective groups.
    And so for example, I was not an engineering major. I was 
not a math major, although I actually had interest in attending 
West Point. So I would just encourage you to think out of the 
box, and hopefully, the next time that you come, you can give 
us specific examples of other colleges, universities and so on, 
besides the math, engineering and so on, that you are reaching 
out to, because there is a whole lot more students that are 
there that will extremely increase your numbers.
    Admiral Hewitt. Yes, ma'am. Thank you. And we will 
definitely look at expanding our outreach efforts.
    Ms. Richardson. Okay.
    And then my next question is for Rear Admiral Burhoe. It is 
my understanding that, according to information provided to 
this Subcommittee, in 1975, the Coast Guard Academy introduced 
its Minority Introduction To Education program, MITE, which 
gave 16 high school students the opportunity to familiarize 
themselves with the Academy. By 2002, 82 students were 
participating in MITE. At about that time, the Academy 
introduced the Academy Introduction Mission, AIM program, which 
was not targeted to any specific group of students other than 
those interested in the Academy. AIM grew into a 2-week academy 
introductory course and, in 2003, ran concurrently with MITE. 
In 2004, the two programs merged into a 3-week course and the 
throughput of about 500 students. How many minority students 
participated in AIM in 2009 and 2010, and how many of those 
actually ended up attending the Academy?
    And then the B question, because I am down to--actually, I 
am just now over my time. Why did you discontinue the MITE 
program, given that it appeared to be a successful tool to 
expose minority students to the CGA? And would you consider 
reinstating it?
    Admiral Burhoe. Yes, ma'am. We merged MITE into AIM, some 
because of the return on investment of the numbers of students 
who had to gone to AIM and the return on them coming to the 
Coast Guard Academy.
    The other thing that we did is to take AIM and add an 
engineering component, so that really AIM not only is an 
introduction to the Academy and the living and the marching and 
the military rigor, but is also, has a one full day broke down 
into two half days component that introduces them to 
engineering. So I do think that we do the same functions that 
we did with AIM, through MITE, excuse me, now, with AIM.
    I don't have the numbers of the under-represented 
minorities who had attended AIM, but I would tell you that it 
is and was too low. This year, we will significantly raise the 
percentage of under-represented minority students who attend 
AIM, seeing that as a unique opportunity to showcase the 
Academy and the programs that we have to offer.
    I would be happy to go back. I am sure that we can come up 
with what those numbers were over the last 2 years and provide 
that for the record for you. I do not have that with me.
    Ms. Richardson. Mr. Chairman, could I wrap up with a final 
statement about this question?
    Mr. Cummings. Very brief.
    Ms. Richardson. Thank you, Mr. Chairman.
    What I would say, though, Admiral, is I don't know if you 
really got what my question was. MITE, as I understand it, is a 
specific program for minority introduction to engineering, as 
opposed to AIM is not. And so although you might be getting a 
bigger bang for your buck with AIM, the problem is, and the 
whole purpose of us being here, is the fact of increasing your 
under-represented populations. So I don't think you are going 
to achieve that is what I am saying by simply doing the AIM 
program. So when you--if you could come back to this Committee 
with what are those numbers, and then also consider, by the 
time you come back again, of establishing, re-establishing that 
program. Thank you very much.
    Mr. Cummings. Thank you very much.
    Admiral Burhoe, what is the swearing-in date for the 
freshman class, the new people coming?
    Admiral Burhoe. It is the 28th of June.
    Mr. Cummings. The 28th of June.
    Admiral Burhoe. Yes, sir.
    Mr. Cummings. Would you provide us--we know we have 
preliminary numbers, but on that day, would you provide us or, 
you know, immediately thereafter, with the final numbers for 
the incoming class? In other words, percentage of minorities?
    Admiral Burhoe. Yes, sir. Absolutely.
    Mr. Cummings. Okay. Fine. Let me go to something else, too, 
and this is just a suggestion. You know, you had the 
valedictorian, an African American woman, Ms. Carol Davis, back 
2 years ago. And I don't know how you all use her to help you 
recruit, but I am going to tell you something. It has been 40 
years ago plus, but I remember when I was trying to figure out 
how, you know, like, for example, the high school I went to, I 
went to the high school I went to because there was a fellow 
named Kurt Schmoke who was ahead of me. And he was brilliant, 
African American who was going places. You know, and so I 
wanted to go to the same high school he went to, which I did. 
He later became mayor of Baltimore.
    And what I am saying is that when you have an example like 
that and if she is willing to help you, you need to have her 
help you, because I think a lot of students, particularly in 
light of the fact that we had the noose incident there, they 
need some level of feeling that, when they have got choices, to 
feel that they are going to be comfortable and that they can be 
successful. People don't want to waste their time going 
somewhere where they are going to feel uncomfortable or a place 
where they don't think that they are going to be successful. 
These are like major league decisions. And so I would 
appreciate it if you would take that--I mean, does she work 
with you at all? I am just curious.
    Admiral Burhoe. We recently interviewed her for a new video 
that we have that features the United States Coast Guard 
Academy, and so she will end up in that video. I don't know 
whether or not we have used her in the schools in New York, but 
I would certainly hope that we are using her to send her out. I 
would tell you that incumbent upon her career is to establish 
and get all of her qualifications before she helps us, but we 
will certainly do that. And the year before, our valedictorian 
was a Hispanic gentleman named Marc Mares, who is in San Diego.
    Mr. Cummings. Same thing with him.
    Admiral Burhoe. Yes, sir, I agree.
    Mr. Cummings. Because, again, keep in mind what I said. 
People want to feel a level of comfort, particularly in an 
environment where there has been some problems, and they want 
to believe that they can be successful, period.
    Admiral Hewitt, in the previous hearing, Vice Admiral 
Pearson testified that the 0-6 billet had been programmed as a 
HBCU liaison. Is that a permanent billet or one that will 
disappear? And what type of activities did the HBCU liaison and 
the HBCU ambassadors participate in 2009 and now in 2010, and 
what were the outcomes of their initiatives? Are you familiar?
    Admiral Hewitt. Yes, sir. Yes, sir. Captain Steve Baynes is 
filling that position right now. It is a--I can get back to you 
on the actual status of that billet, on the permanency of that, 
but I believe it is. But I have to get back to you on that one, 
sir, for the record.
    And in terms of what he has been able to establish, we have 
established 22 minority outreach efforts either through our 
flag officers or Senior Executive Service who are working with 
minority-serving institutions and established, for instance, I 
am the partner with Norfolk State University. I was just down 
there this weekend evaluating their senior projects and viewing 
that.
    And we also have a partnership with our Command and Control 
Center, which is in Portsmouth, and they are doing two interns 
this year. So there is a lot of effort going on.
    And the main thing, though, is just how many campuses 
didn't know the Coast Guard exists. So getting it out there. 
And as I mentioned, we have established the CSPI program or the 
2-year scholarship program.
    Mr. Cummings. I understand that has been very successful.
    Admiral Hewitt. Yes, sir. As I mentioned, 67 percent now 
are minorities, which is a 25 percent increase from last year. 
So we are making a huge amount of progress with that; not only 
from actual results in terms of our civilian and officer 
recruiting efforts, but also just in terms of outreach and 
people understanding that the Coast Guard is there as a 
possible job opportunity.
    Mr. Cummings. Thank you.
    And Admiral Hewitt, the goal of the--and this will be my 
last item. The goal of the diversity and strategic plan is to 
hold leaders at all levels accountable to sustaining a 
workplace climate of equity, building an organization that 
leverages the Coast Guard's diverse work force, and fostering 
an environment where every individual has the opportunity to 
prosper and effectively advance their careers. Is that right? 
That is you all's language.
    Admiral Hewitt. Yes, sir.
    Mr. Cummings. The first objective is to develop methods to 
ensure leader accountability for implementing diversity 
initiatives and programs at all Coast Guard commands. The 
second objective is to ensure diversity initiatives are in all 
Coast Guard supervisor performance evaluation systems. Is that 
right?
    Further, the plan says that all echelons of the Coast Guard 
commands, including the Deputy Commandants, Academy, district 
and individual units, will be held accountable for developing 
initiatives that incorporate the Coast Guard's diversity 
management policies into their business and management process. 
How will you ensure that leaders are held accountable for 
sustaining a workplace climate of equity? Is this evaluated in 
an officer's evaluation report or in other fitness reports?
    Similarly, how are you ensuring that diversity initiatives 
are in all Coast Guard supervisor performance evaluation 
systems? And what exactly does that mean? You got all that? 
Well, let me say this, as you get your thoughts together, staff 
has, very few people they have nothing but good things to say 
about. But you have been one that we have been told have been 
absolutely incredibly great and committed. And we really want 
to thank you for that commitment.
    And the reason why I am asking this question is I am trying 
to figure out, one of my mentors used to say, when you take on 
a position, take it on so that, and you want to change things 
in positive way, but do it in a way so that they last after you 
are gone, hopefully, after you are dancing with the angels, 
that is what he used to say.
    And so how do you we--and I think this is what Mr. Coble 
was getting to--how do we incorporate as best we can under our 
watch, in the words of Ms. Dickerson, changes so that they 
don't just disappear when Cummings is gone off the scene and 
Burhoe and Hewitt are gone off the scene and you know, we are 
rocking in some rocking chairs? How do we make sure that, you 
know, as best we can, that these things stay in place? You 
follow me? Because it is not enough that we have them for a 
moment. I don't want a temporary visa. I want, you know, 
something more permanent. So I am just curious. And then 
incorporate it into what I just asked you.
    Admiral Hewitt. Yes, sir. As I mentioned, 1 September, we 
release the strategic plan, the Diversity Strategic Plan. But 
to ensure that it doesn't just become shelfware, which is what 
you alluded to, how do we ensure we roll it out into a military 
culture, we wrapped it into a, the way we do all our military 
missions, whether it is Katrina or whatever response, the one 
right now in the Gulf that we are responding to, and that is 
why we framed it in terms of OPTASK DIVERSITY.
    And the Commandant released, on 22 December, an all Coast, 
or a message that goes out as a directive to all our 
organizations that established the requirement for each of the 
big four which we refer to, which is the LANT area, PAC area, 
our Deputy Commandant for operations, and our Chief of Staff 
and all the organizations underneath them, have to provide an 
action plan, a diversity action plan, and that had to be 
submitted to us by the 15th of January of this year. And they 
have to provide us quarterly reports, the first report due on 
the 15th of this month, where in fact we have just received it 
and we are collating it now, which is identifying what actions 
they have actually done and what metrics they are using that go 
to the five goals that are in the strategic plan. And we are 
doing, every quarter they have to, they have to do a SITREP and 
report on their progress. And then as part of--I mentioned the 
Commandant has directed every flag officer and SES to have in 
their evaluations what they have they done to achieve diversity 
and achieving those goals and directives. And so it is 
permutating down.
    And in fact, the summit which you were at last week, sir, 
was that. We brought in people from all the districts that 
represent the Coast Guard and ensure that they understand what 
diversity is. And just to give you a few takeaways from that, 
we had 79 percent of the conference found that to be very 
effective; 94 percent said the Coast Guard would benefit from 
that; and the big change was 79 percent are now comfortable 
with speaking about diversity, which is a huge increase from 
what it was before; and the other piece that was the whole 
purpose of the diversity summit was now 67 percent, people 
understand that there is biases in the unconscious because 
everybody brings in their own behavior system, and to 
understand those. And so we have our champions out in the 
field. They are moving this forward. And we are rolling it out 
with quarterly updates that we can report to you, sir.
    Mr. Cummings. You know, going back to what Ms. Ekstrand 
said, and she talked about measuring tools. It sounds like that 
is what you have. It sounds like you are aiming--you have 
certain outcomes you want, and you are figuring out how you get 
to those outcomes, and you are trying to be effective and 
efficient. Is that a fair statement.
    Admiral Hewitt. Yes, sir.
    Mr. Cummings. Great.
    All right. I am going to close out the hearing, but I want 
to take a moment to thank Lieutenant Commander Christy 
Rutherford, who has been with us for about--a year? Three 
years. It seems like a year. She has been absolutely, 
incredibly wonderful.
    And we just want to thank you very much for--first of all, 
we want to thank the Coast Guard for lending her to our 
Committee and our Subcommittee. And she has helped us in so 
many, many ways. First of all, she has consistently shown us 
the standard that the Coast Guard has, and that is excellent. 
And every day she has kept us sensitive to various issues with 
regard to the Coast Guard and helped us understand the climate 
in the Coast Guard much better and what you all do.
    And we really hate to lose her, but we also realize that 
this is just a part of her journey. And we are so glad that 
she--our Subcommittee had an opportunity for our lives, all of 
our lives to eclipse. It didn't have to happen, but it did.
    And so to you, Lieutenant Commander, I want to thank you so 
much. May God bless you. May He bless your journey, and may you 
be very successful in all that you do. And we hope that by 
participating with our Subcommittee that you just gained at 
least a small portion of--as compared to what we have gained 
from you. If you got a small portion from us, then that would 
be absolutely wonderful.
    With that, I want to thank you all for your testimony. It 
sounds like we are well on our way. I must tell you that my 
only concerns go to my last question. I think that we are 
moving in the right direction, but we need to sustain it, and 
we have to keep a sense of urgency.
    And one of the things that I found very interesting, 
Admiral Burhoe, is that the last person who held the job of 
admissions officer at the Academy was there for, what, 8 to 10 
years. Is that normal? Because it seems like you ought to do a 
better rotating job than that--I mean, not better, but it 
happens more often, I thought.
    Admiral Burhoe. It is normal, yes, sir. She was, I think, 
the fifth admissions director. And so, they have normally been 
there for that long a period of time.
    Mr. Cummings. And why is that?
    Admiral Burhoe. It is because college admissions is so 
difficult and because college admissions is a hard process to 
understand and master. And we have found that, once somebody 
gets there and has an understanding of it, that it takes really 
a year or 2. Our current admissions director is likely to be 
there only 3 years unless we do something like a retired recall 
for him. And so we picked the very best candidate regardless of 
the time left, and we will see whether or not it needed to be 
longer.
    Mr. Cummings. The reason why I ask that is that, if I have 
a situation where, -say, for example, a person has a certain 
mindset, an admissions person. And I understand an admissions 
person at the Coast Guard Academy has a lot to say on who gets 
admitted and who doesn't. And let's say that person has a bias 
or, say, that they don't consider the things that we are 
talking about to be very important. And if they are going to be 
in there for 8 to 10 years--and I am not saying anybody has 
done this; I am not saying anybody is going to do this--I am 
just saying that a lot of damage could be done.
    And so I was just wondering--that is why I asked what the 
rotation situation is. You know, I was just curious. Did you 
want to say something else?
    Admiral Burhoe. If you don't mind, just one thing.
    I believe that it is an institutional commitment, that the 
responsibility for admissions is all about the entire academy. 
It is faculty staff; it is all of us. It is not just an 
admissions division responsibility, but that we all share and 
have a responsibility in that.
    Mr. Cummings. Yeah, I would hope so.
    Mr. Coble, did you have anything else?
    Mr. Coble. Nothing further, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 12:07 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6291.018
    
    [GRAPHIC] [TIFF OMITTED] T6291.019
    
    [GRAPHIC] [TIFF OMITTED] T6291.020
    
    [GRAPHIC] [TIFF OMITTED] T6291.021
    
    [GRAPHIC] [TIFF OMITTED] T6291.022
    
    [GRAPHIC] [TIFF OMITTED] T6291.023
    
    [GRAPHIC] [TIFF OMITTED] T6291.024
    
    [GRAPHIC] [TIFF OMITTED] T6291.025
    
    [GRAPHIC] [TIFF OMITTED] T6291.026
    
    [GRAPHIC] [TIFF OMITTED] T6291.027
    
    [GRAPHIC] [TIFF OMITTED] T6291.028
    
    [GRAPHIC] [TIFF OMITTED] T6291.029
    
    [GRAPHIC] [TIFF OMITTED] T6291.030
    
    [GRAPHIC] [TIFF OMITTED] T6291.031
    
    [GRAPHIC] [TIFF OMITTED] T6291.032
    
    [GRAPHIC] [TIFF OMITTED] T6291.033
    
    [GRAPHIC] [TIFF OMITTED] T6291.034
    
    [GRAPHIC] [TIFF OMITTED] T6291.035
    
    [GRAPHIC] [TIFF OMITTED] T6291.036
    
    [GRAPHIC] [TIFF OMITTED] T6291.037
    
    [GRAPHIC] [TIFF OMITTED] T6291.038
    
    [GRAPHIC] [TIFF OMITTED] T6291.039
    
    [GRAPHIC] [TIFF OMITTED] T6291.040
    
    [GRAPHIC] [TIFF OMITTED] T6291.041
    
    [GRAPHIC] [TIFF OMITTED] T6291.042
    
    [GRAPHIC] [TIFF OMITTED] T6291.043
    
    [GRAPHIC] [TIFF OMITTED] T6291.044
    
    [GRAPHIC] [TIFF OMITTED] T6291.045
    
    [GRAPHIC] [TIFF OMITTED] T6291.046
    
    [GRAPHIC] [TIFF OMITTED] T6291.047
    
    [GRAPHIC] [TIFF OMITTED] T6291.048
    
    [GRAPHIC] [TIFF OMITTED] T6291.049
    
    [GRAPHIC] [TIFF OMITTED] T6291.050
    
    [GRAPHIC] [TIFF OMITTED] T6291.051
    
    [GRAPHIC] [TIFF OMITTED] T6291.052
    
    [GRAPHIC] [TIFF OMITTED] T6291.053
    
    [GRAPHIC] [TIFF OMITTED] T6291.054
    
    [GRAPHIC] [TIFF OMITTED] T6291.055
    
    [GRAPHIC] [TIFF OMITTED] T6291.056
    
    [GRAPHIC] [TIFF OMITTED] T6291.057
    
    [GRAPHIC] [TIFF OMITTED] T6291.058
    
    [GRAPHIC] [TIFF OMITTED] T6291.059
    
    [GRAPHIC] [TIFF OMITTED] T6291.060
    
    [GRAPHIC] [TIFF OMITTED] T6291.061
    
    [GRAPHIC] [TIFF OMITTED] T6291.062
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
